TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Most Unpaid Taxes of Participants in the
                 Troubled Asset Relief Program Have Been
                                Resolved



                                       April 28, 2010

                           Reference Number: 2010-30-050




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


MOST UNPAID TAXES OF                                 In considering the significance of the unpaid
PARTICIPANTS IN THE TROUBLED                         taxes, it is important to recognize that when
ASSET RELIEF PROGRAM HAVE BEEN                       the agreements were signed, the
RESOLVED                                             Department of the Treasury was in the
                                                     beginning stages of establishing the
                                                     Troubled Asset Relief Program to address
Highlights                                           the serious economic conditions threatening
                                                     the stability of our nation’s financial system.
                                                     As a result, the focus on stabilizing the
Final Report Issued on April 28, 2010                financial system may have taken priority
Highlights of Reference Number: 2010-30-050          over establishing the controls needed to
to the Internal Revenue Service                      identify unpaid taxes so that the impact of
Commissioners for the Large and Mid-Size             the liabilities could be evaluated. Currently,
Business Division and the Small                      IRS officials are collaborating across
Business/Self-Employed Division.                     functional areas and adapting traditional
                                                     collection processes to accelerate the
IMPACT ON TAXPAYERS                                  identification and resolution of unpaid taxes.
The Troubled Asset Relief Program is a large         It is equally important to add perspective on the
expenditure of public funds that required            amount of unpaid taxes. According to IRS
participants to indicate in agreements with the      records, the 5 publicly traded institutions that
United States Department of the Treasury that        received the most Troubled Asset Relief
all material Federal taxes were paid. However,       Program funds (of the institutions included in this
the fact that some participants had unpaid taxes     audit) voluntarily paid $16 billion of corporate
when the agreements were executed could              income and employment tax liabilities during the
jeopardize the public’s confidence and trust in      time their accounts contained $227 million of
the performance and accountability of our            unpaid taxes. Records also showed that, as of
Federal Government.                                  their respective agreement execution dates,
                                                     their accounts contained nearly $17 billion of
WHY TIGTA DID THE AUDIT                              credits.
This audit was initiated because of concerns         In coming years, there are at least two factors
raised over the unpaid taxes of some                 that will require monitoring the tax accounts of
participants in the Troubled Asset Relief            participants. The first factor involves net
Program. The audit objectives included               operating losses that IRS officials expect many
determining 1) the amount and type of Federal        participants will be claiming for Tax Years 2008
tax debt owed by participants, 2) whether            and 2009. The second factor is the ongoing
participants with unpaid Federal taxes were          income tax audits of some participants, including
engaged in abusive tax activities, and 3) the        eight involved in tax avoidance transactions.
actions underway to enforce compliance or
pursue collection of unpaid taxes from the           WHAT TIGTA RECOMMENDED
participants.
                                                     Although TIGTA made no recommendations in
WHAT TIGTA FOUND                                     this report, IRS officials were provided an
                                                     opportunity to review the draft report. IRS
Internal Revenue Service (IRS) records showed        management did not provide any report
130 of the 558 institutions included in this audit   comments.
had unpaid taxes totaling $530.8 million when
agreements were signed by the Department of
the Treasury’s Assistant Secretary for Financial
Stability and the institutions’ representatives.
However, IRS records also showed that 97
percent of the unpaid taxes were resolved by
December 2009.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 28, 2010


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Most Unpaid Taxes of Participants in the
                             Troubled Asset Relief Program Have Been Resolved
                             (Audit # 200930034)

 This report presents the results of our review to determine 1) the amount and type of Federal tax
 debt owed by recipients of Troubled Asset Relief Program funds, 2) whether Troubled Asset
 Relief Program participants with unpaid Federal taxes are engaged in abusive tax activities, and
 3) the actions underway to enforce compliance or pursue collection of unpaid taxes from
 Troubled Asset Relief Program participants. This review addresses the major management
 challenge of Tax Compliance Initiatives in our Fiscal Year 2010 Annual Audit Plan and was
 conducted because of concerns raised over the unpaid taxes of some Troubled Asset Relief
 Program participants.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 (IRS) officials an opportunity to review the draft report. IRS management did not provide us
 with any report comments.
 Copies of this report are also being sent to the IRS managers affected by the report conclusions.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                            Most Unpaid Taxes of Participants in the Troubled Asset
                                     Relief Program Have Been Resolved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Troubled Asset Relief Program Participants Owed Taxes
          to the Federal Government............................................................................Page 3

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Typical Troubled Asset Relief Program Contract
          With the Federal Government.......................................................................Page 13
          Appendix V – The Five Largest Recipients of Troubled Asset Relief
          Program Funds ..............................................................................................Page 15
          Appendix VI – Summary of Unpaid Tax Modules for Troubled
          Asset Relief Program Participants ................................................................Page 16
        Most Unpaid Taxes of Participants in the Troubled Asset
                 Relief Program Have Been Resolved




                    Abbreviations

IRS           Internal Revenue Service
LMSB          Large and Mid-Size Business
SB/SE         Small Business/Self-Employed
TARP          Troubled Asset Relief Program
                          Most Unpaid Taxes of Participants in the Troubled Asset
                                   Relief Program Have Been Resolved




                                              Background

The Troubled Asset Relief Program (TARP) was established under the Emergency Economic
Stabilization Act of 2008 1 with the goal of stabilizing the nation’s financial system and
promoting economic recovery. The Act created the Office of Financial Stability within the
United States Department of the Treasury (hereafter referred to as the Treasury) and established
several programs under the TARP to further stabilize the financial system, restore the flow of
credit to consumers and businesses, and address the foreclosure crisis to keep millions of
Americans from losing their homes.
The Capital Purchase Program is by far the largest of the programs under the TARP umbrella in
terms of funds invested and number of participants. As of May 5, 2009, the Federal
Government’s investment in the Capital Purchase Program totaled approximately $199 billion.
In return for its $199 billion investment, the Federal Government received an equity interest in
the financial institutions that elected to participate in the Program. Substantial investments were
also made by the Federal Government in the TARP Systemically Significant Failing Institutions
Program (approximately $69.8 billion) and the Targeted Investment Program (approximately
$40 billion), although these programs had only a few participants.
TARP agreements between the Treasury and participating institutions involved a lengthy legal
document that outlined numerous terms, conditions, commitments, and obligations between the
two parties. For example, all institutions that receive money through the Capital Purchase
Program must meet Treasury restrictions on compensation paid to top executives for as long as
they are participants in the Program. The compensation restrictions are designed to discourage
unnecessary and excessive risk taking (excessive salaries, bonuses, shares options, and other
company benefits) that could threaten the value of the institution. TARP agreements also
required the companies to specifically indicate that all material Federal taxes, as well as other
taxes, were paid and they were not aware of any tax deficiencies. Appendix IV shows an
example of the executive compensation and tax provisions from one of the contracts.
Considering the amount of Federal Government assistance involved in the TARP, the Treasury is
receiving substantial oversight and, as a result, has been the subject of some criticism. Besides
Congress, four agencies are charged by the Emergency Economic Stabilization Act with primary
oversight of the TARP. These agencies include the Special Inspector General for the TARP, the
Government Accountability Office, the Financial Stability Oversight Board, and the
Congressional Oversight Panel. Collectively, as of December 2009, the 4 agencies have made
107 recommendations to assist the Treasury to ensure the taxpaying public’s confidence and trust


1
    Pub. L. No. 110-343, 122 Stat. 3765 (2008).
                                                                                             Page 1
                    Most Unpaid Taxes of Participants in the Troubled Asset
                             Relief Program Have Been Resolved



in the performance and accountability of our Federal Government, in general, and the TARP
specifically.
This review was performed in the Internal Revenue Service (IRS) Large and Mid-Size Business
(LMSB) Division National Headquarters in Washington, D.C., and the Small Business/
Self-Employed (SB/SE) Division National Headquarters in New Carrollton, Maryland, during
the period June 2009 through January 2010. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                        Most Unpaid Taxes of Participants in the Troubled Asset
                                 Relief Program Have Been Resolved




                                       Results of Review

The TARP is a large and controversial expenditure of public funds. The possibility that TARP
participants are using the funds and not paying their Federal tax obligations risks undermining
the taxpaying public’s confidence and trust in the performance and accountability of our Federal
Government. While some TARP participants owed millions in taxes at the time they signed
agreements to participate in the TARP, it is important to consider the significance of the unpaid
taxes and their applicability to the TARP, as well as the actions taken to ensure all TARP
participants are meeting their Federal tax obligations.

Some Troubled Asset Relief Program Participants Owed Taxes to the
Federal Government
Among the standardized terms and conditions in the TARP agreements between participating
institutions and the Treasury was a stipulation requiring each institution to have paid the Federal
taxes that could have a significant adverse effect on their operations or financial condition (see
Appendix IV for specific details on the stipulation). Following concerns raised that some
institutions received TARP funds while owing millions in unpaid taxes, we analyzed
558 institutions 2 that received $314 billion of TARP funds under the Capital Purchase Program,
the Systemically Significant Failing Institutions Program, the Targeted Investment Program, and
the Asset Guarantee Program.
Our analysis shows 130 of the 558 institutions included in our review had unpaid tax liabilities
totaling $530.8 million 3 on the date 4 agreements were signed by the Treasury Assistant Secretary
for Financial Stability and the institutions’ representatives. The majority ($401.3 million or
76 percent) of the unpaid Federal taxes were associated with corporate income tax obligations
and $12.3 million of the $401.3 million was outstanding for more than 6 months before the
agreements were signed. Figure 1 shows that 97 percent of the obligations had been satisfied by
December 2009.




2
  We limited our analysis to corporate institutions that had executed TARP contracts as of May 5, 2009, and had
filed corporate income tax returns.
3
  These were assessed tax module balances which did not include any additional accruals such as interest and
penalties that may have been due as of the contract execution date. A tax module refers to a specific year and type
of return within a taxpayer’s account and all tax modules combined comprise a taxpayer’s account.
4
  The contract execution dates are the initial purchase dates shown on the Office of Financial Stability list of TARP
participants.
                                                                                                              Page 3
                                Most Unpaid Taxes of Participants in the Troubled Asset
                                         Relief Program Have Been Resolved



      Figure 1: Composition of Unpaid Federal Tax Debts as of December 2009

                     600

                     500

                     400
     $ in millions




                     300

                     200

                     100

                      0
                               Contract Dates             Sep. 2009                 Dec. 2009

                                           Corporate     Employment    Unemployment


                                         Contract Date        September 2009            December 2009
                     Unemployment                    $9.5                    $0.3                       $0.3
                       Employment                  $120.0                   $16.5                       $3.5
                           Corporate               $401.3                   $13.0                      $14.3
                     TOTAL                         $530.8                   $29.8                      $18.1
                                                                                                  5
Source: Our analysis of TARP participants’ balances in the IRS Integrated Data Retrieval System and the IRS
list of TARP participants’ account balances. The December 2009 balances include additional interest and penalties
that may have accrued since the contract dates.

In considering the significance of the original amount of unpaid taxes and their applicability to
the TARP, it is important to recognize that when the agreements were signed, the Treasury was
in the beginning stages of establishing the Program to address the serious economic conditions
threatening the stability of our financial system. Consequently, the focus on stabilizing our
financial system and taking action to begin restoring confidence in the United States and world
economies may have taken priority over establishing the controls necessary to identify unpaid


5
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 4
                         Most Unpaid Taxes of Participants in the Troubled Asset
                                  Relief Program Have Been Resolved



tax liabilities so that the impact of the tax liabilities on the eligibility of TARP fund participants
could be evaluated. The Government Accountability Office noted the following in its first 6 of
several reports on the impact of the TARP:
    [The] Treasury is operating on a number of fronts concurrently. It is setting up
    programs and establishing oversight policies and procedures at the same time. As a
    result, we are seeing some lag in administrative efforts—for example, in internal
    controls—as the programs proceed.

It is equally important to recognize the impact the unpaid taxes could have on
each institution’s financial condition and to add perspective on the amount of
taxes owed
Without access to the financial records of the TARP participants, we do not know with any
degree of precision if the unpaid taxes were significant enough to adversely affect the
participants’ operations or financial condition. Nevertheless, it is worth noting that the Treasury
and the nation’s Federal banking agencies considered all of the TARP fund participants to be
viable institutions, although in need of additional capital for stability or lending. Moreover, the
558 institutions included in our study involved our nation’s largest and most profitable publicly
traded financial institutions 7 and several have repaid, or are taking steps to repay, the funds.
While we did not have access the institutions’ financial records, we did have access to IRS tax
records and personnel that helped provide some perspective on the significance and status of the
unpaid taxes. We found that just as in other business sectors, many financial services
corporations have grown in size and complexity in response to globalization. According to IRS
records, the 558 financial institutions collectively owned or controlled 6,520 corporate
subsidiaries that operated as separate taxable entities domestically and overseas. Appendix V
contains additional details on the top five publically traded institutions that received the largest
amount of TARP funds, including the revenue and assets they reported in Calendar Year 2008
and the number of related subsidiaries. 8
The 6,520 corporate subsidiaries and their 558 parent corporations not only have obligations to
pay Federal income taxes on their corporate earnings, but also collect and pay to the Federal
Government the taxes withheld from their employees’ wages for Federal income taxes, Social
Security, and Medicare (employment taxes). In addition, the parent corporations and their
subsidiaries pay mandatory matching contributions for the Social Security and Medicare taxes
withheld from their employees’ wages.


6
  Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and
Transparency (GAO-09-161, dated December 2008).
7
  According to the Fortune 500 list for 2008.
8
  Includes domestic corporations (subsidiaries) that filed consolidated returns with their parent corporations and
related subsidiaries that are unconsolidated.
                                                                                                               Page 5
                            Most Unpaid Taxes of Participants in the Troubled Asset
                                     Relief Program Have Been Resolved



To provide perspective on the unpaid taxes, we judgmentally selected the five publicly traded
institutions that received the most TARP funds for an indepth analysis. According to IRS
records, the 5 institutions had 2,450 corporate subsidiaries and collectively accounted for
$227 million (43 percent) of the $530.8 million of unpaid taxes owed by 130 institutions at the
time their TARP agreements were signed. IRS records showed the 5 institutions voluntarily paid
$16 billion of corporate income and employment tax liabilities during the time the $227 million
was owed (Tax Years 1996 through September 2008). The IRS records also showed that, as of
their respective contract execution dates, the corporate income and employment tax accounts of
the institutions contained nearly $17 billion of credits that, in general, represent payments the
institutions made towards anticipated corporate income and employment tax obligations.

The unpaid taxes of the financial institutions participating in the TARP posed a
challenge for the IRS
The IRS initially faced a challenge in determining how well TARP fund participants were
meeting their Federal tax obligations. According to IRS officials, the challenge largely stemmed
from the sheer number of subsidiaries owned or controlled by the financial institutions in the
TARP, which overwhelmed the ability of IRS computer programs to identify and track unpaid
tax debts across the thousands of separate but related taxable entities. Figure 2 summarizes our
comparison of the tradition collection process and the modified process to collect from TARP
participants.
    Figure 2: Comparison Between the IRS Traditional Collection Process and the
    Modified Process Established to Collect Unpaid Taxes From TARP Participants

                   Processes for Collecting Unpaid Taxes                              Traditional     Modified
                                                                                       Process        Process
    1. Identifies unpaid taxes of multiple related but separate taxable entities.         O              X
    2. Issuance of up to 2 notices in 5-week intervals.                                   X              X
    3. Attempts to collect the unpaid taxes through telephone contacts.                   X              *
    4. Placed in suspense status while awaiting final collection assignment.              *              O
    5. Placed in shelved 9 status due to inadequate resources to pursue collection.       *              O
    6. Assigned for face-to-face contact.                                                 *              X
                                               X Yes      O No * Partial
Source: Our analysis of IRS collection processes.




9
 Delinquent unpaid accounts or investigations of unfiled tax returns that have been taken out of the Collection
function’s inventory because they are of lower priority than other available inventory.
                                                                                                             Page 6
                        Most Unpaid Taxes of Participants in the Troubled Asset
                                 Relief Program Have Been Resolved



IRS officials are responding to the challenge by collaborating across functional areas and
adapting traditional collection processes to accelerate the identification and resolution of unpaid
taxes from TARP fund participants. For example, officials in the LMSB Division Office of
Pre-Filing and Technical Guidance are typically involved with assisting businesses to voluntarily
meet their future tax obligations by developing, implementing, and monitoring pre-filing
initiatives such as the Industry Issue Resolution Program and the Pre-Filing Agreement Program.
However, the Office of Pre-Filing and Technical Guidance partnered with the SB/SE Division
Collection function to set up a process to monitor the balance due accounts of TARP
participants.
The process begins when the Office of Pre-Filing and Technical Guidance retrieves a list of
TARP participants from the Office of Financial Stability web site (approximately every
6 weeks), obtains an extract of the taxpayers’ accounts on the IRS Master File, 10 and then sends
the list to the SB/SE Division Collection function. Once received in the Collection function, the
traditional process of sending up to 2 collection notices over a 10- to 15-week period remains.
According to IRS records and officials, taxpayers were resolving most of the balances through
the normal notice process. However, Collection function officials stated that if the liabilities are
not resolved through the notice process, the practice of assigning the tax liabilities to the
Automated Collection System 11 inventory has been eliminated for most TARP accounts. In
addition, we were told that TARP accounts are not assigned to a Collection function Queue 12 or
otherwise placed in an inactive status due to resource constraints.
Instead, TARP cases are accelerated to Collection field offices if payment has not been received
in response to the collection notices. Revenue officers then make face-to-face contact to secure
payment or take enforcement action, such as levying bank accounts, placing liens on property, or
seizing assets. The field offices submit monthly progress reports to an analyst responsible for
monitoring collection actions involving TARP participants.
As shown in Appendix VI, we compared our list of the unpaid tax accounts for the 31 institutions
that still owed taxes as of December 2009 to the IRS list of ongoing TARP collection activity as
of December 19, 2009. Although we found that 12 tax modules, totaling $249,788, had no
record of current collection activity, we were able to determine that collection actions were in
process for about 99 percent of the unpaid balances.




10
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
11
   A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
12
   An automated holding file for unassigned inventory of delinquent cases for which the Collection function does not
have enough resources to immediately assign for contact.
                                                                                                            Page 7
                    Most Unpaid Taxes of Participants in the Troubled Asset
                             Relief Program Have Been Resolved



Other factors exist that could affect the tax liabilities of TARP participants
In coming years, there are at least two factors that will require the IRS to continue closely
monitoring the tax accounts of TARP participants. The first factor involves net operating losses
that the IRS expects many TARP participants will be claiming for Tax Years 2008 and 2009.
IRS officials stated that as of September 30, 2009, 3 of the top 5 TARP participants included in
our review have claimed $6.4 billion in net operating losses for Tax Year 2008.
Recent tax law changes allow small, medium, and large-size businesses to use losses incurred in
Tax Years 2008 and 2009 to claim refunds for taxes paid in the previous 5 years when they were
profitable. The change is part of the economic recovery bill aimed at further helping increase
access to capital for financially distressed businesses. However, TARP participants were
specifically excluded from taking advantage of these new tax incentives, although they can still
use net operating losses to claim refunds for taxes paid in the 2 years previous to incurring the
net operating loss. Consequently, the IRS will need to ensure TARP participants are following
the proper provisions of the tax law when claiming refunds for losses.
The second factor is the ongoing income tax audits of TARP participants. IRS records show
that, as of September 30, 2009, for the 7,078 institutions (558 parent corporations and
6,520 subsidiaries) included in our review, 72 corporations have a total of 198 tax years under
audit. The ongoing audits included eight institutions that signed TARP agreements with unpaid
taxes and were involved in tax avoidance transactions, which are transactions the IRS has
determined takes advantage of loopholes in the tax law to inappropriately reduce tax liabilities.
While it is too early in the process to predict how much, if any, additional taxes will be owed
from the audits, IRS records show that LMSB Division examiners recommended an average of
$659,599 in additional taxes per examined return during Fiscal Year 2009. As a result, the IRS
will need to ensure TARP participants are following the proper provisions of the tax law when
claiming refunds for losses and paying any taxes due as a result of IRS audits.




                                                                                           Page 8
                        Most Unpaid Taxes of Participants in the Troubled Asset
                                 Relief Program Have Been Resolved



                                                                                                   Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine 1) the amount and type of Federal tax
debt owed by recipients of TARP funds, 2) whether TARP participants with unpaid Federal taxes
are engaged in abusive tax activities, and 3) the actions underway to enforce compliance or
pursue collection of unpaid taxes from TARP participants. To accomplish our objectives, we:
I.       Reviewed documents relating to the TARP, including House Resolution 1424, and
         reports by the Government Accountability Office, Congressional Oversight Panel, Office
         of Special Inspector for Troubled Asset Relief Program, and Financial Stability Oversight
         Board.
II.      Used the IRS Integrated Data Retrieval System 1 to extract the Taxpayer Identification
         Numbers for the 571 institutions listed as TARP participants as of May 5, 2009, on the
         web site for the Office of Financial Stability. We analyzed the corporate income and
         employment tax accounts in IRS records for the 558 corporate institutions that had filed
         corporate income tax returns.
III.     Obtained Employer Identification Numbers for all subsidiaries of the 558 corporate
         institutions from data maintained by the LMSB Division Research and Workload
         Identification organization.
IV.      Obtained and analyzed Business Master File 2 information for corporate and employment
         taxes for the parent corporations and their subsidiaries as of June 2009.
V.       Judgmentally selected 3 the five publicly traded institutions that received the most TARP
         funds for an indepth analysis of the status of their unpaid taxes.
VI.      Contrasted normal IRS collection procedures to the procedures used for TARP
         participants.
VII.     Interviewed officials from the Collection function about their efforts to monitor and
         collect balance due accounts from TARP participants.
VIII.    Interviewed officials in the LMSB Division Office of Pre-Filing and Technical Guidance
         on their efforts to monitor the balance due accounts for TARP participants.

1
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  Judgmental sampling was used to conserve time and resources.
                                                                                                             Page 9
                    Most Unpaid Taxes of Participants in the Troubled Asset
                             Relief Program Have Been Resolved



IX.    Interviewed officials in the LMSB Division Office of Tax Shelter Analysis on their
       efforts to monitor the audits of TARP participants.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objectives: the procedures used by the IRS
to monitor the status of the tax accounts of TARP participants, to include applicable examination
and collection activities. We evaluated these controls by interviewing management officials and
reviewing flowcharts and other documents used to monitor the balance due accounts of TARP
participants, as well as reviewing the procedures in place to monitor the status of examination
and collection activity.




                                                                                         Page 10
                   Most Unpaid Taxes of Participants in the Troubled Asset
                            Relief Program Have Been Resolved



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
William Tran, Lead Auditor
Earl Charles Burney, Senior Auditor
David Hartman, Senior Auditor
Alan Lund, Senior Auditor
Craig Pelletier, Senior Auditor
Brian Hattery, Information Technology Specialist




                                                                                      Page 11
                   Most Unpaid Taxes of Participants in the Troubled Asset
                            Relief Program Have Been Resolved



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Pre-Filing and Technical Guidance, Large and Mid-Size Business Division
SE:LM:PFTG
Director, Research and Workload Identification, Large and Mid-Size Business Division
SE:LM:RWI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                       Page 12
                    Most Unpaid Taxes of Participants in the Troubled Asset
                             Relief Program Have Been Resolved



                                                                                  Appendix IV

     Typical Troubled Asset Relief Program Contract
              With the Federal Government

Prior to receiving TARP funds, each participant was required to sign a contract with the United
States Department of the Treasury. One of the provisions of the contract required the participant
to specifically state that all material Federal taxes, as well as other taxes, were paid and they
were not aware of any tax deficiencies. In addition, institutions that receive money through the
Capital Purchase Program must meet Department of the Treasury restrictions on compensation
paid to top executives for as long as they are participants in the Program. The compensation
restrictions are designed to discourage unnecessary and excessive risk (excessive salaries,
bonuses, shares options, and other benefits) that could threaten the value of the institution.
Examples of the provisions from one of the contracts are shown below.
                                             Taxes
   Except as would not, individually or in the aggregate, reasonably be expected to have a
   Company Material Adverse Effect, (i) the Company and the Company Subsidiaries have
   filed all federal, state, local and foreign income and franchise tax returns required to be
   filed through the Signing Date, subject to permitted extensions, and have paid all Taxes
   due thereon, and (ii) no Tax deficiency has been determined adversely to the Company
   or any of the Company Subsidiaries, nor does the Company have any knowledge of any
   Tax deficiencies. “Tax” or “Taxes” means any federal, state, local or foreign income,
   gross receipts, property, sales, use, license, excise, franchise, employment, payroll,
   withholding, alternative or add on minimum, ad valorem, transfer or excise tax, or any
   other tax, custom, duty, government fee, or other like assessment or charge of any kind
   whatsoever, together with any interest or penalty, imposed by any Government Entity.
                                   Executive Compensation
   In consideration for the benefits I will receive as a result of my employer’s participation in
   the United States Department of the Treasury’s TARP Capital Purchase Program, I hereby
   voluntarily waive any claim against the United States or my employer for any changes to my
   compensation or benefits that are required to comply with the regulation issued by the
   Department of the Treasury as published in the Federal Register on October 20, 2008. I
   acknowledge that this regulation may require modification of the compensation, bonus,
   incentive and other benefit plans, arrangements, policies and agreements (including
   so-called “golden parachute” agreements) that I have with my employer or in which I
   participate as they relate to the period the United States holds any equity or debt securities of
   my employer acquired through the TARP Capital Purchase Program. This waiver includes
                                                                                           Page 13
                Most Unpaid Taxes of Participants in the Troubled Asset
                         Relief Program Have Been Resolved



all claims I may have under the laws of the United States or any state related to the
requirements imposed by the aforementioned regulation, including without limitation a claim
for any compensation or other payments I would otherwise receive, any challenge to the
process by which this regulation was adopted and any tort or constitutional claim about the
effect of these regulations on my employment relationship.




                                                                                   Page 14
                           Most Unpaid Taxes of Participants in the Troubled Asset
                                    Relief Program Have Been Resolved



                                                                                                   Appendix V

                       The Five Largest Recipients of
                    Troubled Asset Relief Program Funds

Figure 1 shows the five publically traded institutions that received the most TARP funds, along
with each institution’s revenue and assets as reported in their 2008 annual reports. It also adds
some perspective on the size of the institutions by providing an estimate of their related
subsidiaries. Institutions create subsidiaries for a variety of reasons, such as to protect
themselves from the financial risks associated with new business ventures while retaining the
flexibility of selling the subsidiary at a later date. In addition, there are tax benefits associated
with subsidiaries. For example, companies that operate internationally can set up foreign
operations as separate subsidiaries. In general, the profits of those subsidiaries will then be taxed
in the country where the subsidiary is incorporated and will not be subject to United States
corporate income tax.
    Figure 1: Comparison of Selected Financial Information From the Five Publically
                Traded Institutions That Received the Most TARP Funds
                              Rank by          TARP Funds             2008           2008 Revenue        Number of
        Corporation          TARP Funds         Received           Total Assets        (billions)       Subsidiaries
                              Received 1        (billions)          (billions)

***1***




Source: Our analysis of IRS records and annual reports for the respective companies.




1
    The ranking was done by analyzing a transaction report by the Office of Financial Stability as of May 5, 2009.
2
    According to IRS records, these are domestic corporations that filed consolidated returns with their parents.
                                                                                                             Page 15
                     Most Unpaid Taxes of Participants in the Troubled Asset
                              Relief Program Have Been Resolved



                                                                                    Appendix VI

               Summary of Unpaid Tax Modules for
            Troubled Asset Relief Program Participants

We compared our list of the 31 institutions that still owed Federal taxes as of December 2009 to
the IRS list of ongoing TARP collection activity as of December 19, 2009, and were able to
determine the collection actions in process for about 99 percent of the amounts still owed. In
total, 12 tax modules, totaling $249,788.06, had no record of collection action. Figure 1 shows
the collection status for these institutions and the IRS efforts to collect them, primarily based on
monthly reports submitted to the SB/SE Division Collection function analyst responsible for
monitoring collection actions involving TARP participants, as well as reports from the Office of
Pre-Filing and Technical Guidance unit responsible for tracking the status of debts owed by
TARP participants.
               Figure 1: Status of Unpaid Taxes From 31 TARP Participants
                                   as of December 2009
                                                                                 Status of Collection
                   Entity                                       Unpaid            Actions (per IRS
     Institution   Type       Type of Tax     Tax Periods       Amount                Reports)
 ***1***




 .                                                                           .




                                                                             .




                                                                                             Page 16
                 Most Unpaid Taxes of Participants in the Troubled Asset
                          Relief Program Have Been Resolved




                                                             Status of Collection
               Entity                               Unpaid    Actions (per IRS
 Institution   Type     Type of Tax   Tax Periods   Amount        Reports)
***1***




                                                                         Page 17
                 Most Unpaid Taxes of Participants in the Troubled Asset
                          Relief Program Have Been Resolved




                                                             Status of Collection
               Entity                               Unpaid    Actions (per IRS
 Institution   Type     Type of Tax   Tax Periods   Amount        Reports)
***1***




                                                                         Page 18
                 Most Unpaid Taxes of Participants in the Troubled Asset
                          Relief Program Have Been Resolved




                                                             Status of Collection
               Entity                               Unpaid    Actions (per IRS
 Institution   Type     Type of Tax   Tax Periods   Amount        Reports)
***1***




                                                                         Page 19
                       Most Unpaid Taxes of Participants in the Troubled Asset
                                Relief Program Have Been Resolved




                                                                                         Status of Collection
                     Entity                                            Unpaid             Actions (per IRS
     Institution     Type         Type of Tax      Tax Periods         Amount                 Reports)
    ***1***




1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.

                                                                                                        Page 20
                        Most Unpaid Taxes of Participants in the Troubled Asset
                                 Relief Program Have Been Resolved




                                                                             Status of Collection
                      Entity                                        Unpaid    Actions (per IRS
   Institution        Type         Type of Tax       Tax Periods    Amount        Reports)
 ***1***




Source: Our analysis of IRS Collection function activity reports.

                                                                                         Page 21
